                     DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                    OFFICE O F AUDIT SERVICES
                                                                                            REGION V
                                   233 NORTH MICHIGAN AVENUE
                                                                                            OFFICE OF
                                     CHICAGO, ILLINOIS 60601                           INSPECTOR GENERAL



                                      July 31,2003

Report Number: A-05-03-00033

Ms. Catherine Jacobson
Chief Financial Officer
Rush-Presbyterian-St. Luke's Medical Center
1700 West Van Buren, Suite 265
Chicago, Illinois 60612

Dear Ms. Jacobson:

Enclosed are two copies of the U.S. Department of Health and Human Services (HHS), Office of
Inspector General Report entitled "Review of Medicare Outpatient Prospective Payment System
Outlier Payments made to Rush-Presbyterian-St. Luke's Medical Center (Rush)." A copy of this
report will be forwarded to the action official noted below for review and any action deemed
necessary.

Our audit objective was to determine whether Rush was reimbursed properly for outlier
payments made during the initial implementation of the Outpatient Prospective Payment System
(OPPS). The Centers for Medicare & Medicaid Services (CMS) implemented OPPS with an
effective date of August 1,2000.

For services rendered during the period of August 1,2000 through June 30,2001, we
judgmentally sampled 50 outpatient claims with outlier payments of $83,805. We determined
that Rush received improper Medicare reimbursements on 38 of these claims (35 overpayments
totaling $7,726 and 3 underpayments totaling $7,752).

Final determination as to actions taken on all matters reported will be made by the HHS action
official named below. We request that you respond to the HHS action official within 30 days
from the date of this letter. Your response should present any comments or additional
information that you believe may have a bearing on the final determination.

In accordance with the principles of the Freedom of Information Act (5 U.S.C. 552, as amended
by Public Law 104-231), OIG, OAS reports issued to the department's grantees and contractors
are made available to members of the press and general public to the extent information
contained therein is not subject to exemptions in the Act. (See 45 CFR Part 5).
Page 2 - Ms. Catherine Jacobson

To facilitate identification please refer to Report Number A-05-03-00033 in all correspondence
relating to this report.

                                                   Sincerely yours,


                                                   Paul Swanson
                                                   Regional Inspector General
                                                   for Audit Services



Enclosures - as stated

Direct Reply to HHS Action Official:

Jacqueline Garner - Regional Administrator
Centers for Medicare & Medicaid Services (CMS) - Region V
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
I   Department of Health and Human Services
                OFFICE OF
           INSPECTOR GENERAL




                              UTPATIE
               Office of Inspector General 

                                   http://oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in the
inspections reports generate rapid, accurate, and up-to-date information on the efficiency,
vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and
of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
State Medicaid fraud control units, which investigate and prosecute fraud and patient abuse
in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within the
Department. The OCIG also represents OIG in the global settlement of cases arising under
the Civil False Claims Act, develops and monitors corporate integrity agreements, develops
model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                             Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov/

   In accordance with the principles of the Freedom of Information Act, 5 U.S.C. 552, as
  amended by Public Law 104-231, Office of Inspector General, Office of Audit Services,
 reports are made available to members of the public to the extent information contained
           therein is not subject to exemptions in the Act. (See 45 CFR Part 5.)



                 OAS FINDINGS AND OPINIONS

       The designation of financial or management practices as questionable or a
   recommendation for the disallowance of costs incurred or claimed as well as other
conclusions and recommendations in this report represent the findings and opinions of the
 HHS/OIG/OAS. Authorized officials of the awarding agency will make final determination
                                    on these matters.
                                  EXECUTIVE SUMMARY

OBJECTIVE

Our objective was to determine whether Rush-Presbyterian-St. Luke’s Medical Center (Rush)
was reimbursed properly for outlier payments made during the initial implementation of the
Outpatient Prospective Payment System (OPPS).

SUMMARY OF FINDINGS

The OPPS was mandated by the Balanced Budget Act of 1997 (BBA) and became effective
August 1, 2000. Our review was limited to Medicare outpatient claims with significant outlier
payments of at least 85 percent of the total claim reimbursement. For services rendered during
the period of August 1, 2000 through June 30, 2001, we judgmentally sampled 50 outpatient
claims, totaling $86,491, with outlier payments of $83,805. We determined that Rush received
improper Medicare reimbursements on 38 of these claims (35 overpayments and 3
underpayments.)

The 35 overpayment errors, totaling $7,726, were attributable to an outlier pricing issue within
the Fiscal Intermediary’s (FI) claim processing system. Although Rush billed the claims
properly, the FI’s claim processing system generated outlier overpayments by including non-
covered charges from the claims in the calculation of the outlier reimbursements.

The three claims with underpayments of $7,752 were the result of Rush improperly coding and
billing Medicare for implantable devices. Rush omitted a Health Care Financing Administration
Common Procedure Coding System (HCPCS) code relating to these implantable devices that
would have resulted in a higher claim reimbursement with no outlier payment. Rush was aware
of this billing problem and initiated an analysis in calendar year 2002 to identify other claims
with implantable devices that were not coded and billed correctly. Although Rush has taken
corrective action on this billing condition, these three claims were isolated instances that were
excluded from their adjustment analysis.

RECOMMENDATIONS

We recommend that Rush:

   •   Refund outlier overpayments of $7,726 and

   •   Resubmit claims for the improperly billed implantable devices in order to recover the
       identified underpayments of $7,752.

Rush agreed with our findings and will work with their fiscal intermediary (FI) in addressing our
recommendations. Rush’s response is appended to this report in its entirety (See APPENDIX
2).
                             TABLE OF CONTENTS

                                                    Page

INTRODUCTION                                          1

    BACKGROUND                                        1

    OBJECTIVES, SCOPE AND METHODOLOGY                 1

FINDINGS AND RECOMMENDATIONS                          2

    Overpayments Due to FI Pricer Problem             2

    Improper Coding for Implantable Devices           3

    RECOMMENDATIONS                                   3

    AUDITEE RESPONSE                                  3

APPENDICES

    EXAMPLE OF PRICER PROBLEM                    APPENDIX 1

    AUDITEE RESPONSE                             APPENDIX 2
        Glossary of Abbreviations and Acronyms
APC     Ambulatory Payment Classification

BBA     Balanced Budget Act of 1997

CMS     Centers for Medicare and Medicaid Services

FI      Fiscal Intermediary

HCPCS   Health Care Financing Administration Common Procedure Coding
        System

NCH     National Claims History

OIG     Office of Inspector General

OPPS    Outpatient Prospective Payment System

Rush    Rush-Presbyterian-St. Luke’s Medical Center
                                     INTRODUCTION


BACKGROUND

The Balanced Budget Act of 1997 (BBA) mandated that the Centers for Medicare & Medicaid
Services (CMS) implement a Medicare prospective payment system for hospital outpatient
services. As such, CMS implemented the outpatient prospective payment system (OPPS), which
did not become effective until August 1, 2000. With the exception of certain services, which
will continue to use existing fee schedules, payments under OPPS are calculated by grouping
services into ambulatory payment classification (APC) groups. Services within an APC are
clinically similar and require similar resources. In this respect, some services; such as,
anesthesia, supplies, certain drugs and use of recovery and observation rooms; are packaged in
APCs and are not paid separately. To ensure “equitable payments,” the BBA also allowed outlier
adjustments to be made in an overall budget neutral manner.

The Balanced Budget Refinement Act of 1999 further delineated the requirements for hospital
outlier payments to cover some of the additional cost of care beyond thresholds established by
the Secretary. The payments in total cannot exceed 2.5 percent of total program payments for
outpatient hospital services for each year before 2004. Outlier payments are determined by: (1)
calculating the cost of services on OPPS claims (multiplying the total charges for covered OPPS
services by an outpatient cost-to-charge ratio); (2) determining whether these costs exceed 2.5
times the OPPS payments; and (3) allowing 75 percent of the amount by which the costs exceeds
the OPPS payments.

Since any new billing methodology for providers, such as OPPS, presents the possibility for
billing errors and potentially significant underpayments or overpayments, we focused our review
on claims having significant outlier payment amounts. We considered the larger outlier
payments to have more potential for billing errors.


OBJECTIVE, SCOPE AND METHODOLOGY

The objective of our review was to determine whether Rush-Presbyterian-St. Luke’s Medical
Center (Rush) was properly reimbursed for outlier payments made during the initial
implementation of OPPS.

SCOPE

Since OPPS became effective for services rendered on or after August 1, 2000, our review was
limited to OPPS outlier payments made to Rush for services rendered from August 1, 2000
through June 30, 2001. We further limited our review to claims having significant outlier
amounts, which we defined as payments that were at least 85 percent of the total claim
reimbursement. Since our audit objective focused on Medicare outpatient claims with outliers
that were paid under OPPS, we did not perform a complete review of Rush’s overall internal
control structure. Instead, we limited our internal control testing to understanding Rush’s
controls over the accumulation of Medicare charges, creation of outpatient bills, and submission
of Medicare outpatient claims.

METHODOLOGY

To accomplish our objective, we:

   •   Obtained CMS’s National Claims History (NCH) file and identified 2,166 Medicare
       outpatient claims with outlier payments, totaling $757,155, for services rendered during
       the period August 1, 2000 through June 30, 2001.

   •   Identified high-risk outlier claims, defined as claims having an outlier payment of at least
       85 percent of the total claim payment.

   •   Selected a judgmental sample of 50 claims with outlier payments totaling $83,805.

   •   Discussed and obtained an understanding of Rush’s billing procedures for accumulating
       charges, creating outpatient bills, and submitting Medicare claims.

   •   Reviewed the medical files and discussed the medical necessity and reasonableness of the
       charges billed for the selected claims.

The 50 claims sampled represent approximately 2 percent of the hospital’s OPPS outlier claims
and approximately 11 percent of the total outlier payments received by Rush during this audit
period. Our review was conducted in accordance with generally accepted government auditing
standards. Our fieldwork was performed at Rush’s offices in Chicago, Illinois, and the Office of
Inspector General’s (OIG) offices in Chicago, Illinois, and St. Paul, Minnesota, during the period
January through February 2003.


                          FINDINGS AND RECOMMENDATIONS

We determined that Rush received improper Medicare reimbursements on 38 of the 50 outpatient
claims reviewed (35 overpayments and 3 underpayments). The overpayments were attributable
to a problem in the Fiscal Intermediary’s (FI) claim processing system and totaled $7,726. The
three underpayments of $7,752 pertained to improperly billing Medicare for implantable devices.
Rush should have billed for the implantable devices using a specific HCPCS code, which would
have resulted in a higher claim reimbursement with no outlier payment.

Overpayments Due to FI Pricing Problem

The outlier overpayments on 35 claims, totaling $7,726, were caused by an edit problem within
the FI’s pricer program, which inappropriately included non-covered charges in the calculation
of outlier payments. Because the calculation of an outlier payment for OPPS claims is
contingent, in part, on Medicare covered charges that are packaged in APCs, overstating charges
could result in excessive or unwarranted outlier payments. When the FI pricer included non-


                                                2
covered charges in the calculation of the outlier payment; overpayments were generated. We
determined that Rush had properly identified non-covered charges on the claims submitted to the
FI for payment. These errors only occurred on claims having lines of service with both covered
and non-covered charges. The FI was unable to provide a definitive technical explanation for
this system problem and indicated that this problem would not be addressed internally any earlier
than April 1, 2003. See APPENDIX 1 for an example of the effect these overstated charges
have on the outlier reimbursement.

Improper Coding for Implantable Devices

We identified three improperly billed claims that were underpaid by $7,752. When Rush
prepared its Medicare billing for implantable devices on the three claims, it omitted the
appropriate HCPCS “C” codes. If these codes had been used, no outlier payment would have
been paid on these claims. Instead, the total claim reimbursement would have been higher than
the reimbursement as an outlier claim. We determined that Rush was entitled to an additional
reimbursement of $7,752, when the proper “C” codes were applied.

Before we began our review, Rush was aware that charges related to implantable devices had
been billed and coded improperly and began a two-phase initiative to review these claims and to
submit adjustments for those that were improperly billed and coded. The first phase of Rush’s
initiative began in August 2002 and covered claims with dates of services from April 2001
through August 2002. The second phase was performed in December 2002 and covered claims
with dates of services from July 2001 through December 2002.

It appears that our identified claims with improper coding for implantable devices were
inadvertently excluded from Rush’s review. Rush confirmed that these claims were not included
in either of their initiatives. Since Rush’s corrective action should address the internal billing
concern, no additional procedural recommendations are in order.


RECOMMENDATIONS

We recommend that Rush:

   •   Refund the overstated outlier overpayments of $7,726 and

   •   Resubmit claims for improperly billed implantable devices in order to recover the
       identified underpayments of $7,752.


AUDITEE RESPONSE

Rush agreed with our findings and will work with their fiscal intermediary (FI) in refunding the
the $7,726 in identified overpayments and refilling claims for the underpayments identified of
$7,752. Rush’s response is appended to this report in its entirety (See APPENDIX 2).




                                                3
APPENDIX
                                                                                        APPENDIX 1

                                     Effect of Pricer Problem

Within our sample of 50 claims, we had identified 35 claims where the FI’s pricer program
generated an outlier overpayment. Because the outpatient outlier payment calculation under
OPPS is contingent, in part, on Medicare covered charges for APC group, overstated covered
charges result in excessive or unwarranted outlier payments. The following example illustrates
the effect that this pricer problem had in generating outlier overpayments.

Rush submitted a claim with outpatient charges totaling $4,275.80, which contained non-covered
charges of $619.35. Medicare covered charges were $3,656.45. Instead of excluding the total
non-covered charges that were billed, the pricer program excluded only $24.35 in non-covered
charges resulting in an outlier overpayment of $159.50. The following table shows how this
outlier overpayment was calculated:

                                                                   Calculation of
                                                                  Reimbursement
 Line #                                                              Received       OIG Calculation Overpayment
          OPPS OUTLIER CALCULATION
    1     Total Charges Billed                                           4,275.80          4,275.80
    2     Non-covered Charges excluded                                      24.35            619.35
    3         Medicare covered OPPS charges (Line 1 - Line 2)            4,251.45          3,656.45
    4     Less Fee Schedule Charges (if applicable)                          0.00              0.00
    5     Net Charges for Outlier Calc. (Line 3 - Line 4)                4,251.45          3,656.45
    6     OPPS Cost-to-Charge Ratio                                   0.35743198        0.35743198
    7                Charges Adjusted to Cost (Line 5 x Line 6)          1,519.60          1,306.93

    8     Total APC Payments                                                93.82            93.82
    9     Outlier Threshold Amount (Line 8 x 2.5)                          234.55           234.55

   10     Costs Over Outlier Cost Threshold (Line 7 - Line 9)            1,285.05          1,072.38
   11     Outlier Payment (75% of the Difference)                          963.79            804.29

          PROVIDER REIMBURSEMENT CALCULATION
   12     APC Payment (From Line 8)                                         93.82            93.82
   13     Less: Coinsurance                                                 33.35            33.35
   14     APC Payment to Provider                                           60.47            60.47
   15     Fee Schedule Payments to Provider (if applicable)                  0.00             0.00
   16     Outlier Payment                                                  963.79           804.29
   17     Total Payment to Provider                                      1,024.26           864.76       159.50
APPENDIX 2
 Page 1 of 2
APPENDIX 2
 Page 2 of 2
                               ACKNOWLEDGMENTS

This report was prepared under the direction of Paul Swanson, Regional Inspector General for
Audit Services. Other principal Office of Audit Services staff who contributed include:

Stephen Slamar, Audit Manager
Scott Nelson, Senior Auditor
Rhonda Walker-Byrd, Auditor
Yuson Chon, Auditor

Technical Assistance
Tammie Anderson, Advanced Audit Techniques Audit Manager




For information or copies of this report, please contact the Office of Inspector General’s Public
Affairs office at (202) 619-1343.
